CERTIFICATE OF SERVICE
Pursuant to this Court’s Rule 29.5(b), I certify that I have been appointed to represent named
Petitioners for the purposes of filing this Application for Extension. I further certify that on
September 26, 2019, at the time of express delivery to this Court, I served the foregoing
Application, on counsel for the Respondent, by depositing a copy of the same, first class postage
prepaid and by email to:
Richard Moeller
BERENSTEIN & MOORE
501 Pierce Street P.O. Box 3207
Sioux City, IA 51102-3207
iTnoeller@mooreheffemanlaw.com

As a result, I state pursuant to Rule 29.5 that all parties required to be served have been served.

/s/ Yuki Haraguchi
Yuki Haraguchi
Holmes Pittman and Haraguchi, LLP
Uline Arena
1140 3rd St NE 2nd Floor
Washington, DC 20002
y haraguchi @hphattorney s. com
(410) 482-9505

